No. 21A
____________
IN THE SUPREME COURT OF THE UNITED STATES
____________
JOHN D. GLENN, JR. Petitioner,
v.
UNITED STATES, Respondent.
______________________
APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
TO THE HONORABLE SAMUEL A. ALITO, ASSOCIATE JUSTICE OF
THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE
FOR THE THIRD CIRCUIT:
Pursuant to this Court’s Rules 13.5 and 30.2, petitioner-applicant John D.
Glenn, Jr., prays for a 30-day extension of time to file his petition for a writ of
certiorari in this Court to and including December 2, 2021.
1. Timeliness and Jurisdiction. On March 9, 2021, the United States Court of
Appeals for the Third Circuit filed a non-precedential opinion affirming the
applicant’s convictions and sentence. Appx. A. The Third Circuit denied his timely
petition for rehearing on August 4, 2021. Appx. B. As a result, pursuant to this
Court’s Rules 13.1 and 13.3, a petition for certiorari would be due on or before
November 2, 2021. This application is being filed at least ten days before that date.
See Rule 30.2. The jurisdiction of this Court is to be invoked under 28 U.S.C. §
1254(1).

-1-

2. Opinions Below. The Third Circuit’s March 9, 2021, opinion, authored by
Judge Fisher and joined by Judges McKee and Porter, is attached as Appendix A. It
is published in the Federal Appendix at 846 Fed.Appx. 110. The district court did not
publish any opinion.
3. Reasons for Granting the Extension.
a. The applicant was convicted after a jury trial of bank fraud and
conspiracy to commit bank fraud and sentenced to 168 months’ imprisonment. The
theory of fraud was that the victim financiers were financial institutions because
they each qualified as “mortgage lending businesses” under the Third Circuit’s broad
interpretation of 18 U.S.C. §§ 20, 27, 1344, 1349.
b. On appeal, the applicant challenged the jury instructions as missing an
element: that the jury must find that the victim entity was a financial institution.
Instead, the district court had the jury presume each victim financier was a
“mortgage lending business.” The applicant also challenged his conviction for
conspiracy to commit bank fraud because one victim financier was not legally a
mortgage lending business and so the jury could have convicted him of conspiracy
based on an illegal object.
c. The court of appeals disagreed with appellant’s arguments and affirmed.
Appx. A. Rehearing was denied. Appx. B.
d. In undersigned counsel’s professional opinion, this case presents one issue
that may meet this Court’s standards for granting certiorari. Counsel anticipates
that the petition will present the following question:

-2-

(1) Is the Third Circuit’s interpretation of “mortgage lending business”
pursuant to 18 U.S.C. §§ 20, 27, 1344, 1349, as announced in United States v.
Fattah, 914 F.3d 112 (3d Cir. 2019) and applied to this applicant, an overbroad
application of a federal statute?
e. Undersigned counsel, Assistant Federal Public Defender, whose practice
focuses on federal criminal appeals, and, during the COVID-19 pandemic, also
carries a substantial caseload of compassionate release cases in the District of New
Jersey, has the following concurrent appellate deadlines: (1) an opening brief due in
the Third Circuit on October 21, 2021; and (2) a reply brief due in the Third Circuit
on November 3, 2021, both appeals from jury trials at which undersigned counsel
was not trial counsel. In addition, counsel filed a reply in a motion for compassionate
release on October 11, 2021, and will file another two motions for compassionate
release in the next several weeks. As a result of these circumstances, counsel cannot
manage to file the petition in this case by the November 2, 2021, due date and still
satisfy her own or this Court’s standards.
f. Mr. Glenn is currently incarcerated, serving the 168-month sentence. He
does not seek delay for any tactical reason. For the same reason, the government
would not be prejudiced by the requested extension.

-3-

WHEREFORE, the Applicant-Petitioner prays that an Order be entered
extending the time within which he may petition this Court for certiorari by 30 days,
to and including December 2, 2021.
Respectfully submitted,
Dated: October 12, 2021

s/ Alison Brill
By:

ALISON BRILL
Assistant Federal Public Defender
22 S. Clinton Avenue
Station Plaza #4, 4th Fl.
Trenton, New Jersey 08609
(609) 489-7457
alison_brill@fd.org
Counsel for the Applicant

-4-

